<html>
<title> - RESOURCES AND AUTHORITIES NEEDED TO PROTECT AND SECURE THE HOMELAND</title>
<body><pre>[Senate Hearing 116-464]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-464

  RESOURCES AND AUTHORITIES NEEDED TO PROTECT AND SECURE THE HOMELAND

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             MARCH 4, 2020
                               __________

        Available via the World Wide Web: http://www.govinfo.gov
        

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

             
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               U.S. GOVERNMENT PUBLISHING OFFICE

40-973 PDF              WASHINGTON: 2021





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
                   Joseph C. Folio III, Chief Counsel
            Christopher S. Boness, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
         Alexa E. Noruk, Minority Director of Homeland Security
              Michelle M. Benecke, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk
                     
                     
                     
                     

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     3
    Senator Carper...............................................     9
    Senator Hassan...............................................    11
    Senator Harris...............................................    14
    Senator Rosen................................................    17
    Senator Portman..............................................    19
    Senator Romney...............................................    22
    Senator Scott................................................    25
    Senator Sinema...............................................    27
    Senator Hawley...............................................    30
Prepared statements:
    Senator Johnson..............................................    39
    Senator Peters...............................................    40

                               WITNESSES
                        Wednesday, March 4, 2020

Hon. Chad Wolf, Acting Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................     3
    Prepared statement...........................................    41

                                APPENDIX

Major Budget Line Items Chart....................................    50
SW Border Apprehensions Unaccompanied Minors and Families Only 
  Chart..........................................................    51
SW Border Apprehensions Daily Average by Month Chart.............    52
Hon. Ned Norris statement........................................    53
NTEU statement...................................................    62
Responses to post-hearing questions for the Record:
    Mr. Wolf.....................................................    70





 
  RESOURCES AND AUTHORITIES NEEDED TO PROTECT AND SECURE THE HOMELAND

                              ----------                              


                        WEDNESDAY, MARCH 4, 2020

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Romney, Scott, Hawley, 
Peters, Carper, Hassan, Harris, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good afternoon. This hearing will come to 
order.
    I want to thank Acting Secretary Wolf for his appearance, 
for his testimony, and in advance for his answers to our 
questions.
    I would ask that my written statement be entered into the 
record.\1\ I kind of want to hop right into this thing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    I have a chart.\2\ This does not surprise the Committee 
much. I know you are pretty well shocked. But being a bean 
counter myself, this is a budget hearing--and, by the way, I 
just want to make sure that all the Committee Members are aware 
that we will have a hearing tomorrow with representatives from 
the Department of Homeland Security (DHS) and the Department of 
Health and Human Services (HHS) on the coronavirus disease 
(COVID-19). Now, I am sure Acting Secretary Wolf will answer 
questions that are posed to him as it relates to DHS, but a lot 
of these questions that we may have right now are probably 
better directed to HHS. So to the extent that we can really 
kind of focus on the budget, I would appreciate it.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    Just real quick, I just kind of laid out so I really 
understand what all does DHS spend money on, and Customs and 
Border Protection (CBP), about $18 billion a year; U.S. Coast 
Guard (USCG), 12; U.S. Immigration and Customs Enforcement 
(ICE), 10; Federal Emergency Management Agency (FEMA), 14; 
Transportation Security Administration (TSA), 8, Cybersecurity 
and Infrastructure Security Agency (CISA), 1.8; and then other 
discretionary, about $18 billion. You also have about $26 
billion of offsetting fees. So gross expenditures, about $76 
billion, offset by $26 billion of fees, so net spending is 
about $50 billion.
    I will want to ask the Acting Secretary, in terms of FEMA 
major disasters, in 2019 we budgeted $12 billion; last year, we 
allocated and enacted $17 billion; and you are only budgeting 
about 5.1. So we will be asking that question.
    When you take a look at what we all spend on border 
security--the next chart\1\--between CBP and ICE, almost $30 
billion. So that is a big chunk, not quite 50 percent of the 
budget. But this is why we are spending it. You see my charts 
on this. We are revising a little bit. What you have right now 
here is a bar chart that shows--the first one is unaccompanied 
alien children (UAC) and family units, the weekly monthly 
average, if that makes sense. So by month, what is the weekly 
average by month of people being apprehended at the border. It 
dates back to 2012. What I have tried to do is I have tried to 
put relevant government actions that we can relate to the 
numbers. And so you see, when we did not have much of a 
problem, Deferred Action for Childhood Arrivals (DACA) was 
announced, and it built to the point in 2014 where President 
Obama declared a humanitarian crisis and began detaining 
families together. And you can see the effect that that policy 
had of family detention, again, children and their parents 
being detained together.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    Unfortunately, that policy was challenged in court. Flores 
was reinterpreted; you cannot even detain children with their 
parents. And so the crisis just continued to explode to where 
we saw it in May 2019, I think it is over 4,600 apprehensions 
per day. Per day. Now, that is a caravan a day that CBP had to 
handle. You can see the President just tenaciously acting 
without help from the courts, without help from Congress, 
policies that people may agree or disagree with, but one thing 
I think you have to agree with. These policies have been 
effective, and we have brought these numbers down. But we are 
still a long way from solving this problem.
    We will go to the next chart,\2\ which includes single 
adults, and you can see that the numbers are down slightly in 
terms of single adults, but that has been pretty consistent. 
That is just a persistent problem we have of illegal 
immigration, and I am not really combining the two, but in 
light of the fact that we have coronavirus, certainly CBP 
officers have in the past dealt with all kinds of different 
diseases, drug-resistant strains of tuberculosis, scabies. We 
have been down to the border. We have seen the areas where we 
try and contain people so those things do not spread. That 
represents another risk that faces this Nation.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    So, again, I am looking forward to Acting Secretary Wolf's 
testimony here. DHS is a massive Department with massive 
responsibilities. I do not truthfully envy your task. I 
appreciate anybody who is willing to serve in this capacity and 
certainly anybody who is willing to come and testify before our 
Committee as well. So I intend to treat you with real respect; 
I hope everybody else does as well. With that, Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman, and thank you, 
Secretary Wolf, for being here today and for your service to 
the Nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 40.
---------------------------------------------------------------------------
    Every year, the Homeland Security Secretary comes before 
this Committee to discuss tough choices that were made to 
arrive at these final budgetary numbers, but we often do not 
hear how those decisions were made. The numbers in this budget 
represent decisions that will have a real impact on the safety 
of the American people, choices that I hope were made after 
extensive deliberation and thoughtful consideration.
    It is our duty to carefully consider your proposal and to 
thoroughly evaluate the process that led you to these 
conclusions. If we went through this proposal line by line, we 
would likely find any number of areas on which we disagree. But 
we share the common goal of keeping Americans safe.
    At the same time, your mission to secure the homeland and 
protect the American people must co-exist with a diverse set of 
responsibilities: to facilitate lawful trade and travel, to 
uphold basic civil rights and liberties, to protect the 
integrity of our elections, and to assist communities around 
the country recovering from disasters. It is my hope that this 
budget and our discussion here today will reflect that broad 
scope of very challenging responsibilities.
    Secretary Wolf, I look forward to hearing your testimony 
today.
    Chairman Johnson. Thank you, Senator Peters.
    It is the tradition of this Committee to swear in 
witnesses, so if you will please stand and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Wolf. I do.
    Chairman Johnson. Please be seated.
    The Honorable Chad Wolf is the Acting Secretary for the 
Department of Homeland Security and has been serving in this 
position since November 2019. Mr. Wolf has served in numerous 
senior leadership roles within the Department, which includes 
leading the Office of Strategy, Policy, and Plans, as well as 
Chief of Staff of the Department. Acting Secretary Wolf.

TESTIMONY OF THE HONORABLE CHAD WOLF,\2\ ACTING SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Wolf. Chairman Johnson, Ranking Member Peters, and 
distinguished Members of the Committee, it is a privilege to 
appear before you today to discuss the Department of Homeland 
Security's mission to keep this Nation safe and to present the 
President's fiscal year 2021 budget for the Department.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Wolf appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    As Acting Secretary, my priorities are guided by a 
determination to ensure that DHS is robust, resilient, and 
forward-leaning, prepared to address today's threats as well as 
those of tomorrow. The fiscal year (FY) 2021 President's budget 
is not only a reflection of those priorities, but a path to 
achieving them.
    As this Committee knows, the Department of Homeland 
Security's mission spans air, land, sea, and cyber domains, and 
our workforce of 240,000 strong stands watch for the Nation 24 
hours a day, 365 days a year. They serve a unique dual 
imperative: keeping our Nation safe and secure while keeping it 
prosperous by facilitating lawful trade and travel.
    As I often say, economic security is homeland security, and 
DHS plays a critical role in this mission. The President's 
budget ensures that our workforce has the resources needed to 
execute these critical responsibilities. It includes $49.8 
billion in net discretionary funding and $5.1 billion for the 
disaster relief fund (DRF).
    Consistent with recent years, our budget priorities remain 
the same, which is securing our borders, enforcing our 
immigration laws, securing cyberspace and critical 
infrastructure, transportation security, and American 
preparedness.
    Recognizing that threats to the homeland are more dynamic 
than ever before, the budget also positions us to respond to 
emerging threats, including those emanating from nation-states. 
The Department also continues to help manage the U.S. 
Government's response to the coronavirus. The Department 
continues to support the Department of Health and Human 
Services, who is the lead Federal agency in charge of the U.S. 
Government's response. DHS remains focused on assisting 
travelers arriving at our air, land, and maritime ports of 
entry (POE), and the administration took early action to 
prohibit foreign nationals with travel to China from entering 
the United States. The same now applies to foreign nationals 
traveling from Iran.
    Every day, the men and women of DHS are making sure that 
these travel restrictions are in place and enforced. They are 
also ensuring that all American citizens with recent travel to 
China or Iran are funneled through 11 airports where we have 
stood up enhanced medical screening. The Department's Chief 
Medical Officer is also coordinating closely with the Centers 
for Disease Control (CDC), non-government organizations (NGOs), 
the Governments of Mexico and Canada, and local health 
officials on our operational procedures as well as impact on 
our workforce.
    I would also like to note that the Department's 
Cybersecurity and Infrastructure Security Agency, is working 
with the private sector owners and operators across all 
critical infrastructure sectors to identify impacts to the 
supply chain and to share guidance on potential cyber 
vulnerabilities and impacts to their workforce.
    The Department is also closely monitoring cases of the 
virus that appear here in our hemisphere. Last Friday, the 
first case of coronavirus was confirmed in Mexico, with five 
additional cases reported since. The same day, I would note 
that a misguided court in California suspended the Migrant 
Protection Protocols (MPP). Hours later, private attorneys and 
NGO's demanded the entrance of over 2,000 illegal aliens, 
causing both CBP and Mexican officials to temporarily close a 
handful of ports of entry for several hours. Thankfully, the 
court entered a temporary stay, but I will say that MPP has an 
uncertain future.
    We know from experience that the journey to the U.S. border 
puts migrants in poor conditions, and they often arrive with no 
passports, no medical history, and no travel manifests. The 
administration will continue to closely monitor the virus 
globally as well as in our hemisphere, and we will adjust our 
proactive measures as necessary.
    Let me take a few more minutes just to highlight a few of 
the additional priorities in the budget.
    The Department must continue to grow our digital defense as 
cyber threats grow in scope and severity. Election security 
remains a top priority for the Department and the 
administration to preserve our electoral process and to secure 
our systems against any interference. The President's budget 
invests $1.7 billion in CISA to strengthen our cyber and 
infrastructure security mission.
    The security of our Nation's borders also remains a primary 
focus for the Department and, most notably, the budget includes 
$2 billion for the construction of approximately 82 miles of 
new border wall system as well as funding for additional 
technology and additional staffing.
    While securing our borders is vital, the integrity of our 
immigration system requires that we enforce the law as written, 
and it remains the priority of the Department to protect our 
citizens by identifying, detaining, and removing criminal 
aliens from our country. And the budget includes over $3 
billion to ensure that our law enforcement officials have the 
resources they need to faithfully execute the law. And that is 
as true today as it was in the wake of September 11, 2001 (9/
11). Counterterrorism is the Department's core mission. 
Importantly, the President has increased funding for targeted 
violence and terrorism prevention programs by 500 percent in 
this budget, up to $96 million. This funding is critical to 
identifying at-risk individuals and preventing their 
radicalization to violence.
    Also note that the budget invests in modernizing the fleet 
of the United States Coast Guard. Specifically, it provides 
$550 million to fund the construction of a second Polar 
Security Cutter, which supports our national interests in the 
polar region.
    While physical capabilities and technology are certainly 
important, the Department's greatest assets remains our 
workforce, and so the President's budget provides funding for 
over 500 new cybersecurity employees across the Department, and 
at CBP 750 new Border Patrol agents, including 126 new support 
staff, as well as sustained funding that Congress provided in 
fiscal year 2020 of the 300 Border Patrol processing 
coordinators. At ICE, the budget provides for 2,800 new law 
enforcement officers and 400 new ICE attorneys. At TSA, the 
funding sustains over 47,000 transportation security screeners 
or officers, and that is to match pace with passenger volume 
growth.
    These are only but a few priorities included in the budget, 
and as has been noted, DHS has one of the most diverse and 
complex mission sets in all of government, and I am constantly 
amazed by the dedication of our professionals. Therefore, I ask 
your support in providing them the resources they need to keep 
our homeland secure through the President's fiscal year 2021 
budget request.
    Thank you again for the opportunity to appear.
    Chairman Johnson. Thank you, Acting Secretary Wolf.
    I will defer my questions until the end. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    A couple of questions related to the coronavirus that I 
think are worth mentioning up front, although we will have a 
more in-depth hearing tomorrow. Secretary Wolf, I want to chat 
with you a little bit about we are making sure that we have 
coordinated information that is going out to folks. The one 
thing that I certainly have been hearing back home over and 
over again, people are bombarded from a variety of information 
sources. Sometimes it is conflicting. Even within this 
administration, we have different departments saying different 
things about coronavirus. There are folks out there trying to 
profit from some of the fear that is out there as well.
    We had an opportunity to hear from the Vice President 
yesterday. I handed him an idea that I think is important, and 
I wanted to get your sense. It is that we have a dedicated 
website that is dot-gov that is a credible source that people 
can go to with some very straightforward facts about the 
coronavirus and, probably more importantly, how the Federal 
Government is actually responding so people can see what is 
being done or not being done. But I think it is important to 
have everybody all on the same page, all communicating in a 
way. The CDC does put out information, but it is difficult to 
get to. You have to really want to go find some of that 
information. It should not be that difficult for the average 
American to go to a trusted dot-gov site and get the facts and 
have it all in a coordinated fashion.
    Is that something that makes sense to you? And would you be 
willing to lean in that we have an information source that 
takes your Department's information and others' and puts it out 
in a straightforward, factual way that people can trust?
    Mr. Wolf. I am certainly supportive of making sure that we 
push as much information as quickly as we can to the American 
public. So if there is a way to streamline that that makes that 
more accessible, I am certainly in support of that. We talked 
about this issue yesterday, so, again, I am happy to talk with 
the Vice President and really the interagency on how we do 
that.
    As you mentioned, HHS houses a lot of this information, but 
do understand that sometimes it is a little clunky to get to. 
You would have to go to HHS to see what they are doing and DHS 
on our dot-gov page to really understand what we are doing as 
well. So I certainly support the notion of pushing as much 
information as quickly as possible in an easily digestible 
format to the American people.
    Senator Peters. With one easy, accessible source, because 
you have a lot of information to put out. People should not 
have to search through all these different sites. Again, I am 
sure my colleagues are hearing all this from people, too, that 
there just does not seem to be a coherent place to go and get 
the idea of what is happening.
    The next question relates to test kits and essential 
employees in testing. I know that recently in Washington State 
an office was closed when someone tested positive, and an 
office of 300 folks were sent home at that time. Obviously, 
that particular unit folks can telecommute and can continue to 
work. But as you know, Acting Secretary Wolf, a lot of your 
folks are on the front line.
    Mr. Wolf. Right.
    Senator Peters. You cannot send hundreds of folks from the 
border home for 2 weeks and not have people there, and if this 
continues to spread, you could have a situation where we just 
simply do not have the manpower to protect our country.
    My question to you is: How are you looking at a solution to 
prioritize testing so that we can test folks who either have 
the illness or do not? And if you do not have the illness, you 
can stay on the job; you can stay on your post at the airport 
or wherever you may be working. How are you going to be 
managing this issue as people come forward with an illness and 
you cannot close everything down? Explain to me how you are 
thinking that through.
    Mr. Wolf. I think we are doing that in a couple different 
ways. One is the administration is obviously pushing our more 
tests, and I think you will hear a little bit about that 
tomorrow when HHS testifies, while making sure that--sort of 
revising the number of rules, making sure that commercial labs 
and State labs can push out those tests as well. So, overall, 
part of the process is getting more of those into the hands of 
folks.
    We have also talked with CDC about as our front-line 
workers, should this continue to grow and they become impacted, 
how do we prioritize getting those individuals tested. So we 
would do that not only with the local and State health 
officials, but also with the local CDC folks as well as CDC 
headquarters to do that. We will have to do that on a case-by-
case basis, depending on what part of the country they are at 
and everything else that is going on in that particular region 
or community. But we have talked to them about how do we 
prioritize DHS officials, protecting the border and doing their 
mission-essential jobs so that they can identify whether or not 
perhaps they are sick, and if not, continue to provide their 
mission.
    Senator Peters. Part of it could be because you do not show 
symptoms for a couple weeks. If someone does test positive, you 
do not want to send necessarily everybody home that does not 
test positive, even though they may have been in the vicinity 
of that individual.
    Mr. Wolf. That is correct.
    Senator Peters. So if you are changing the testing criteria 
or you are going to test folks that appear completely healthy, 
confirm that they are healthy so they can stay on their job.
    Mr. Wolf. We are. As we get more and more of those tests 
out there, we will have the ability to test more and more 
folks, and that is part of the process, yes.
    Senator Peters. Great. The administration's budget proposal 
zeroes out the Chemical Facility Anti-Terrorism Standards 
(CFATS) program. It is my understanding that a determination 
was made to dissolve this anti-terrorism program without any 
analysis or threat assessment. To your knowledge, was a threat 
assessment or detailed analysis done to justify this decision?
    Mr. Wolf. To my knowledge, it was. Again, it was a 
discussion not only with the administration and DHS and 
obviously CISA who runs the program. So we looked at that, and 
our assessment is you can reach more facilities--as of right 
now, we spend about $75 million to regulate 3,300 facilities. 
Our approach is to move that to a voluntary program so we can 
reach beyond the 3,300, and you can reach up to 40,000 chemical 
facilities. Again, that is very similar to how CISA does their 
mission and all their other mission sets, whether it is 
election security, critical infrastructure, soft target 
security. It is moving to a voluntary-based program, allowing 
them to push out more of their protective security advisers, 
their cybersecurity advisers, working with these chemical 
facilities, again, trying to increase the amount of security 
that we have across the chemical industry sector.
    Senator Peters. So you are saying there was an assessment. 
That is news to me and to my staff. Are you able to provide 
those documents to us as to the assessment that was made?
    Mr. Wolf. We will work with you to provide that.
    Senator Peters. I would appreciate it. You mentioned this 
would go to a voluntary process. However, right now the focus 
is on 3,300 facilities, as you mentioned.
    Mr. Wolf. It is.
    Senator Peters. Those 3,300 have been determined as the 
most dangerous and the ones that are most exposed to a 
terrorist threat. There is a reason why that 3,300 was picked. 
If we go to a voluntary way to do it, you say that could expand 
it to 40,000. But what is to have those 3,300 actually use the 
voluntary program? We actually may be moving away from the most 
vulnerable sites and perhaps letting other folks get into it 
and then in the process actually making us more vulnerable.
    Mr. Wolf. So that is not our experience. Our experience, 
particularly in this case, working with these 3,300 facilities 
over the course of well over a decade, about 13 years, is they 
have increased their baseline of security, and they will 
continue to do that. And we see that. One would say how do we 
know that? We see that in other sectors that CISA works with, 
again, in election security fraud, also the critical 
infrastructure, soft target security. They know, as they push 
information out, the industry is looking to how to better 
protect their facilities, in this case chemical facilities. So 
we are confident that they will continue to build on the work 
that they have done over the last 13 years and will continue 
that security. It is good for their facilities. It is good for 
their people. It is good for their employees. And, again, the 
idea here is to try to reach out, to go beyond those 3,300, to 
scoop up more chemical facilities, but also to make sure that 
we spread the resources across CISA to look at all of their 
threats and all of their vulnerabilities. So, again, pushing 
out more of those protective security officers across the 
country, the cybersecurity security officers across the country 
that cannot only deal with these chemical facilities but also 
can do other missions at CISA.
    Senator Peters. Thank you. I am out of time, but before I 
give up my time, I would just like to ask for unanimous consent 
(UC) that a statement from the National Treasury Employees 
Union (NTEU)\1\, who represent CBPOs, be entered into the 
record.
---------------------------------------------------------------------------
    \1\ The statement referenced by Senator Peters appear in the 
Appendix on page 62.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    I do want to just say on the record I completely agree with 
the administration's proposal's result as it relates to 
security tests or inspections and security advisory for the 
chemical sector. To me it makes perfect sense you have a common 
approach across all critical infrastructure sectors. CFATS is a 
special way of doing it, and to me that does not make a whole 
lot of sense, particularly in light of the fact that, as you 
said, you have already got a lot of investment. You have 
increased security already. Take a win. Celebrate the success, 
and then go with the more common, from my standpoint probably 
more easily manageable approach of the Department. Rather than 
have a completely separate and special system, have a common 
approach across the Department. So, again, I am completely 
supportive of what the administration is trying to do here. 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I spent a few years of my life in the Navy, 
and when I was a lieutenant commander, people would call me 
``commander.'' Folks who were lieutenant colonels, they call 
them ``colonel.'' You are Acting Secretary; I am going to call 
you ``Secretary,'' if that is OK.
    Mr. Wolf. OK.
    Senator Carper. Mr. Secretary, a question about staffing 
levels for Border Patrol and also for the crossings, whatever 
to call the commerce that goes back and forth across our border 
crossings.
    My recollection is that we have had--I think our authorized 
level for Border Patrol officers is a little over 20,000, and 
we have had a hard time actually filling those vacancies, 
hiring all those people. I want to ask about that today. Any 
idea how we are doing in terms of filling the spots that are 
actually----
    Mr. Wolf. So you are exactly right, Senator. We have had a 
difficult time. I would say CBP has had a difficult time over 
the years hiring Border Patrol officers. I will say in the last 
two fiscal years we have had a net increase, so we were able to 
hire more individuals to the Border Patrol than leave the 
Border Patrol. So we think we are on the right trajectory, and 
that is for a variety of different reasons, not only from 
hiring incentives, but it is also retention incentives, 
different duty stations, different rotations.
    So there are a number of things that Border Patrol has put 
in place, again, working with Members of the Committee and 
others, to try to put those procedures in place to not only 
recruit qualified individuals but to retain our best and 
brightest.
    So, again, I think we are on the right path. There is 
certainly more work to be done there, which is why you see a 
request in the 2021 budget for 750 Border Patrol agents.
    Senator Carper. All right. I am told by my staff that the 
Department has failed to provide Congress with information 
regarding the actual number of ICE agents and Border Patrol 
agents currently on board, and I would just ask you to commit 
for the record to providing us----
    Mr. Wolf. Sure.
    Senator Carper [continuing]. Congress, with current on-
board numbers for Border Patrol and ICE agents, if you would do 
that.
    Mr. Wolf. Yes.
    Senator Carper. And would you also provide us data on 
hiring for each of the last 3 fiscal years that you have 
alluded to.
    Mr. Wolf. We will.
    Senator Carper. Let me just ask, in terms of ports of 
entry, CBP's workload staffing model indicates that the number 
of officers needed to effectively secure our ports, where a lot 
of illicit materials come through, but would indicate--the 
staffing model indicates we need about 26,000, almost 27,000 
officers to secure our ports. But that does not seem to be 
reflected in the administration's budget. Can you explain that?
    Mr. Wolf. We continue to not only hire Border Patrol 
officers, but also what we call ``OFO'' officers, which man our 
ports of entry. Some of our fees allow us to continue to do 
that, to hire those individuals as well, so that may not be 
reflected in an appropriations request.
    I will say that from a staffing standpoint, for ports of 
entry we feel very comfortable. What we are focused on at ports 
of entry is making sure that we get the right technology there 
that supplements the staffing so that we are able to screen 
vehicles, passenger vehicles as well as commercial vehicles, 
for many of the illicit narcotics and contraband and other 
items.
    Senator Carper. I am going to ask you to respond for the 
record, again, back on this issue of the officers at our ports 
of entry. The question will be: Why doesn't the President's 
budget request actually ask for funding to fulfill that need?
    Let me talk a little bit about leadership vacancies, if I 
could. I do not know that we have ever had this conversation 
before, you and I, but we have certainly had this conversation 
in this room many times. In the last administration, when Jeh 
Johnson was our Secretary, right about the time he took over, 
we had what I called ``Executive Branch Swiss Cheese'' in the 
senior leadership positions in Homeland Security, and we worked 
very hard, Tom Coburn and I and the Members of this Committee 
worked very hard to try to fill those and to work with the 
administration to do that.
    You are the fifth person to lead the Department of Homeland 
Security under the current administration in basically 3 years. 
That is not good. That is not good. We need Senate-confirmed 
leadership. We need continuity of leadership. We are grateful 
that you are willing to take this on, but this is not a way to 
run a Department or a government.
    Addressing this issue is not your responsibility. You are 
willing to serve as our Acting, but it is the President's 
responsibility. I just want to ask that you use your influence 
within the administration to push for qualified, permanent 
candidates to be nominated and brought to the Senate for a 
vote. That is really a request I would make of our leadership 
here. I do not know that the administration will listen to us. 
The Obama Administration listened to both Tom Coburn and me and 
others, did not matter if you were a Democrat of Republican. 
But we need Senate-confirmed folks and well-qualified people as 
well.
    Do you have any information you could share with us, 
though, about nominations for some of the key posts within the 
Department of Homeland Security? For example, when can we 
expect to receive nominations for some of the many leadership 
posts that remain vacant across the agency? I will just mention 
a couple of them: the Director of U.S. Citizenship and 
Immigration Services (USCIS), the Commissioner of CBP, and the 
Director of ICE. Any thoughts on when we could see some 
nominees for those posts?
    Mr. Wolf. Again, Senator, I would say obviously those are 
Presidential nominations, so the administration, the White 
House has a process that that goes through Presidential 
Personnel. I would refer you to them as far as any nominees 
that are in the pipeline.
    I will say we have a number, I believe one or two, that are 
pending before the Senate as far as our nominees, and I want to 
thank the Senate. We had a recent female Administrator 
confirmed, so that is very helpful. So I would appreciate any 
help that you can provide on acting quickly on the nominees 
that are before the Senate. But I understand your point about 
the unfulfilled positions at the Department.
    Senator Carper. There you go. Also, on St. Elizabeth's, is 
your office in the St. Elizabeth's area?
    Mr. Wolf. So the headquarters did move in April.
    Senator Carper. Can you say yes or no?
    Mr. Wolf. Yes.
    Senator Carper. OK. I am going to ask you--I am going to 
submit a more detailed question on this. This is something we 
have been following, as you know, for years, trying to figure 
out, having all these different pieces of the Department of 
Homeland Security spread out all over the place, and try to get 
them in one central place so somebody could actually lead them 
as a team. But I am going to ask a detailed question for the 
record regarding the most recent plan for the site.
    But, briefly, do you agree that ultimately completing the 
DHS headquarters at St. Elizabeth's will enhance the ability of 
the agency to complete its missions and save taxpayer dollars?
    Mr. Wolf. Absolutely.
    Senator Carper. Good. Thank you. Could you be more clear? 
No, I am just kidding. That is what I was hoping we would hear. 
Thank you.
    Mr. Wolf. Thank you.
    Chairman Johnson. Next, my Acting Ranking Member, Senator 
Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair. I thank you and 
Senator Peters for holding this hearing. And, Acting Secretary 
Wolf, thank you for being here, and please pass along my thanks 
to all the women and men who serve the Department.
    Mr. Wolf. Thank you.
    Senator Hassan. It is challenging work, and we are very 
grateful for their service.
    I wanted to start with asking you a question about 
ransomware attacks and what the Department is doing on a couple 
critical areas. Over the past year, the private sector and 
State and local governments have endured an outbreak of 
ransomware attacks that target everything from schools to city 
services to hospitals and public health facilities.
    As we have seen, these entities all play an important role 
in helping to promote community health and prevent the spread 
of infectious diseases such as coronavirus. Last week, a 
cybersecurity firm warned that public and private entities may 
be at an increased risk of ransomware attacks due to the spread 
of the coronavirus as criminal hackers exploit staffing 
interruptions and decreased operational capacity.
    I was pleased to see that the President's budget request 
continues to increase investments in cybersecurity. However, we 
must do more to protect our State and local partners and 
specifically health care facilities against ransomware.
    Can you tell me how DHS will seek to protect our health 
care facilities from ransomware attacks as they deal with the 
coronavirus emergency?
    Mr. Wolf. Absolutely. So, obviously, ransomware, as 
Director Krebs will say in CISA, that is probably one of their 
most horrific types of cyber intrusions that they see on a 
daily basis. So the men and women at CISA are certainly focused 
on this, and they continue to push a number of products, a 
number of sensors on a lot of the Federal networks, and talking 
to State and locals.
    Specifically, when we talk about coronavirus, there are a 
couple different ways that CISA is approaching this. One would 
be as individuals are staying home and doing more of the 
teleworking, that obviously prevents vulnerabilities on their 
system, cyber vulnerabilities. CISA is also leaning in on that 
front, again, pushing information, making sure that as 
companies go to more telework, that they are aware of some of 
the vulnerabilities that could be on their systems from a cyber 
perspective.
    Also, scams that you mentioned as well, we do see that 
today. People are going to take advantage of any type of 
crisis, any type of incident that is going on out there. So 
CISA is, again, pushing information out there that folks need 
to be aware of, a number of scams, a number of incidents that 
are going on that are focused around the coronavirus or asking 
for money or doing a number of things. So, yes, they are 
focused on that as part of what they are providing the 
Department on our response.
    Senator Hassan. I think it is just really important--and I 
hope you will take this back to Director Krebs--that we make 
sure that our public health and hospital systems have 
contingency plans in case they do face a ransomware attack, 
because one of the issues that any society and country faces 
during some sort of epidemic like this is that their health 
care capacity is stretched. And so we want to make sure that 
there are contingency plans in place and that the Department 
can do everything it can to aid in that.
    Mr. Wolf. I did talk with Director Krebs today. They held a 
call, over 6,000 connections--not quite 6,000 people but 6,000 
connections.
    Senator Hassan. OK.
    Mr. Wolf. Across a variety of industries to include the 
health care industry, to talk about responses to coronavirus, 
to talk about emergency plans, to talk about the telework and 
number of things, to answer a lot of questions to----
    Senator Hassan. Right, and I appreciate that. My particular 
focus, though, here is just to think about not just the 
telework vulnerabilities, but the impact that a ransomware 
attack would have in shutting down an entire computer system.
    So let us move on to another issue. In recent years, 
Americans have witnessed an increase in the number of threats 
and violent attacks on houses of worship. Toward that end, my 
colleagues and I authorized and expanded the Department of 
Homeland Security's Nonprofit Security Grant Program (NSGP) 
last year in order to get more funding to community 
organizations facing threats of violence.
    In New Hampshire, faith communities became eligible for 
this important funding for the very first time last year. This 
is mostly due just to the size of our State and the size of our 
houses of worship.
    However, I was frustrated to learn that this year FEMA has 
forced houses of worship to rush to meet a deadline that is 
nearly 3 weeks earlier than the maximum allowable time for 
applications under current law. Right now houses of worship in 
New Hampshire, many of which are applying for the first time--
and they are small. They do not have large staffs. They do not 
have professional grant writers. They are scrambling to 
navigate this complex process and prepare a grant application 
with very limited resources.
    So, Secretary, now that the Nonprofit Security Grant 
Program has been authorized and expanded, will you give houses 
of worship more time to apply for this year's grant program by 
extending the deadline to the full time allowed under the law?
    Mr. Wolf. Yes, I am unaware of the 3-week period that you 
talk about. I am certainly aware of the funding notice that 
went out from FEMA on all of our grants.
    Senator Hassan. Right.
    Mr. Wolf. So let me definitely take that one back and 
understand the difference on that 3-week period. I do not see a 
problem with it.
    Senator Hassan. I think one of the things we were told is 
that there are only two FEMA employees processing applications 
and that that might have an impact on it. Obviously, if that is 
the impact, I am hoping you will commit to providing more FEMA 
staff to this grant program going forward.
    Mr. Wolf. OK.
    Senator Hassan. After reviewing the President's budget, I 
was very concerned about the proposed reduction in FEMA funding 
to emergency management trainings for local officials. The 
National Domestic Preparedness Consortium, for instance, helps 
ensure that communities across the United States are ready for 
likely threats and hazards. Courses offered by the consortium 
include Framework for Health Emergency Management, Community 
Health Care Planning and Response to Disasters, Medical 
Countermeasures Awareness for Public Health Emergencies, and 
Disaster Preparedness for Health Care Organizations.
    So, Secretary Wolf, as the Nation grapples with the spread 
of the coronavirus, why would the administration choose to cut 
funding for these trainings that help first responders and 
health care providers deal with public health emergencies?
    Mr. Wolf. Of course, I would start out by saying obviously 
the fiscal year 2021 budget was built many months ago, over 12 
months ago.
    Senator Hassan. Understood.
    Mr. Wolf. What I will say on the grant funding, which I 
know is a very active conversation with Congress, is we 
continue to--we have pushed out, I believe, $52, $53 billion in 
grants since the life of the Department, and it is designed to 
build capacity. It is not designed at the end of the day to be 
baseline budgeting.
    Senator Hassan. I understand that, and I am running out of 
time. But I hope you are going to reconsider these cuts given 
now the presence of the coronavirus. The last thing we should 
be doing right now with people on the front lines is saying, 
``I hope you built the capacity. Too bad if you did not. This 
was a one-time thing.'' Right? I really think we need to be 
investing with all the skill and resources we have. So I look 
forward to continuing the discussion with you.
    Mr. Wolf. Absolutely, and, again, the money that the 
administration requested in the supplemental would obviously go 
to benefit State and local capacity as well. So we have thought 
through that as well.
    Senator Hassan. Thank you.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, and I join my colleagues in 
terms of our collective and nonpartisan concern about the 
coronavirus. I just received this afternoon word that we have 
an elderly individual in California who has passed away from 
the coronavirus, and, of course, my prayers are with their 
family.
    Mr. Chairman, also, California is seeing the first signs of 
potential drought, and wildfire season has already started. But 
the Committee, our Committee, has not had a formal FEMA 
hearing, an oversight hearing, since April 2018. So this is 22 
months later, and during that time we have had at least two 
devastating wildfire seasons in California, flooding across the 
Midwest, and earthquakes in Puerto Rico. We clearly need an 
oversight hearing, and I am requesting that we have one as soon 
as possible, and I look forward to working with you to make 
that happen.
    Mr. Secretary, last year Chief Justice Roberts said that 
the administration has said ``they are not going to deport'' 
DACA recipients and instead ``work authorization and these 
other benefits are what is at stake.'' Yet in January, Acting 
ICE Director Albence said that, ``If DACA is done away with by 
the Supreme Court, we can actually effectuate these removal 
orders.''
    So that sounds to me like if the Supreme Court rules in 
your favor, you are going to start deporting DACA recipients.
    Does the administration plan to deport DACA recipients?
    Mr. Wolf. That would not be our priority, no.
    Senator Harris. Are you considering deporting DACA 
recipients?
    Mr. Wolf. No. Of course, we would have to look at the 
totality, if there are individuals that fall out of status and 
commit crimes. There are a number of reasons why we would 
perhaps identify, target, and remove individuals. So it is very 
hard to say a blanket yes or a blanket no.
    Senator Harris. Can I take away from that statement that if 
they have not committed any crimes and have remained productive 
members of our community, they will not be targeted with 
deportation?
    Mr. Wolf. Again, they would not be targeted. We focus our 
time, attention, and resources on removing criminals from the 
general public, and what I would say----
    Senator Harris. Is this the case regardless of what the 
Supreme Court returns as its ruling?
    Mr. Wolf. I would say yes, that is our priority day in and 
day out, week in and week out--removing criminals. But what I 
will also say is obviously we have to enforce the law as it is 
written. So when we get final orders of removal, we are going 
to effectuate those as well. But, again, we have limited 
resources, so we have to target those resources, and we target 
those to criminals.
    Senator Harris. Does your agency have any plans to change 
what you have been doing as it relates to DACA recipients who 
have remained productive, law-abiding members of their 
community based on the ruling of the Supreme Court that we 
expect to happen any day or month now?
    Mr. Wolf. Again, it is hard for me to say yes or no in a 
blanket--obviously, they have a certain legality to be here in 
the United States. If that is changed, we obviously have to 
assess that. But, again, what I am telling you is our focus 
will remain on removing criminals from the general public.
    Senator Harris. OK. But what I am trying to understand is 
this: There are many organizations out there right now who have 
as their business to concern themselves with the well-being of 
immigrants----
    Mr. Wolf. I understand.
    Senator Harris [continuing]. Who are very concerned and 
making contingency plans based on what the Supreme Court might 
rule. I find it hard to believe that your agency is not also 
making contingency plans around what might be three to four 
scenarios in terms of what the Supreme Court would rule. Are 
you telling me you do not have any contingency plans?
    Mr. Wolf. No, I am not saying that. I am saying our focus 
will remain on removing criminals from our community.
    Senator Harris. Can you share with this Committee your 
contingency plans based on what might be the Supreme Court 
ruling?
    Mr. Wolf. I will go back to ICE, and we will look at that, 
yes.
    Senator Harris. And can you have that to us by the end of 
next week, please?
    Mr. Wolf. Let me check, let me confer with ICE. I have not 
seen those contingency plans personally, so let me look with 
ICE and review those, and we will get those up.
    Senator Harris. And you will get those to the Committee?
    Mr. Wolf. We will get those to the Committee.
    Senator Harris. Thank you.
    According to human rights organizations, there have been at 
least 1,001 reported cases of murder, rape, torture, and 
kidnapping against people that have been sent to Mexico under 
the Trump administration's remain in Mexico policy. This number 
includes 228 children who were kidnapped or nearly kidnapped, 
according to the report. The places you have been sending them 
include cities that the State Department has put on the Do Not 
Travel list for American citizens because those places are just 
not safe. Many experts believe that the administration's policy 
of sending people to Mexico under this policy was intended to 
deter these people from returning to the United States to seek 
asylum.
    Is it your intention to send these people to a place so 
horrible that they give up their quest to seek asylum and 
refuge in the United States?
    Mr. Wolf. No. Our design with the Migrant Protection 
Protocols is to make sure that we are able to effectuate the 
immigration process in a quick manner to render those that have 
a meritorious claim, they can get their hearing heard in a 
matter of months versus years; and those that have a false 
claim, again, get their----
    Senator Harris. I understand the purpose of the process.
    Mr. Wolf. Right.
    Senator Harris. But the effect of the process has been that 
1,001 human beings have been--and those are just the report--
subject to extreme violence. In fact, I sent a letter to you, 
to your office, along with 23 other United States Senators 
describing what has happened, including that there was a 23-
year-old woman and her 5-year-old daughter who were kidnapped 
and then released, but threatened with death if they did not 
pay a ransom. The letter describes a 20-year-old woman who was 
grabbed in the street and sexually assaulted after she was 
returned under this policy to Mexico. The letter describes a 
21-year-old who was robbed at knifepoint and stabbed in the 
back, and the Mexican police would not help him.
    It has been 7 months since we sent your agency this letter. 
We have not received a response.
    My question to you is: Have you investigated any of these 
complaints? And if so, why do you continue to maintain a policy 
that is exposing human beings to this kind of violence when 
they are simply coming here seeking asylum and refuge from 
harm?
    Mr. Wolf. So the Department has always maintained that the 
journey north for many of these individuals is very dangerous, 
and so we are taking a number of policies and procedures to 
reduce that dangerous journey north.
    Senator Harris. What are you doing?
    Mr. Wolf. Reduce the pull factors.
    Senator Harris. Please tell us what you are doing.
    Mr. Wolf. We are also working with the Government of Mexico 
to--again, we have sent through the Department of State over 
$22 million, shared that through a number of NGO's, like United 
Nations High Commissioner for Refugees (UNHCR) and 
International Organization for Migration (IOM) with the 
Government of Mexico to buildup their shelter capacity 
specifically for MPP.
    Senator Harris. Are you aware----
    Mr. Wolf. As well as transportation----
    Senator Harris [continuing]. that these complaints include 
incidents that are occurring in those shelters? Are you aware 
of the 1,001 cases----
    Mr. Wolf. Well, I am aware of that report, yes. I am aware 
of that report. I am aware----
    Senator Harris. Have you investigated it?
    Mr. Wolf [continuing]. Of the overall violence, again, on 
the journey north as they make this journey north, which is why 
we have been encouraging these individuals to seek protection 
as close to home as possible so they do not----
    Senator Harris. With respect, sir, because I am running out 
of time, I understand your point about the journey north. But I 
am explaining to that the report indicates after they have made 
the journey north, coming here to seek asylum, we are sending 
them back to Mexico under a policy that is being administered 
by your agency, and it is upon that return that they are being 
exposed to rape, to murder, to kidnapping, and torture. So I am 
asking you, are you investigating those cases and critically 
evaluating whether this is the intended effect of your policy? 
Or does it point out a defect in your policy?
    Mr. Wolf. I understand the question. We continue to work 
with the Government of Mexico to provide them the capacity, the 
capability, to continue to invest in those shelter capacities 
along the border at the MPP sites, not only to buildup that 
capacity but to secure that. And we certainly encourage all 
individuals in the MPP program to go to those shelters. What we 
find, unfortunately, is there is a number of those folks that 
are in the program that choose not to go to those shelters, 
that go elsewhere in those communities. And so we would 
encourage all of them to go to those Government of Mexico-
designed shelters through the MPP process where they do have 
that protection.
    Chairman Johnson. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you. Thank you for holding this 
hearing. Thank you, Acting Secretary Wolf, for being here 
today.
    You and I have talked before about the tragic deaths and 
treatment of migrant children in the custody of Customs and 
Border Protection at the U.S. Southern Border. After meeting 
with a number of organizations providing services to children 
at the border, my staff and I came up with a set of 
recommendations and sent them to your office last year.
    Since then, our offices have exchanged a number of ideas on 
how to implement those recommendations. Specifically, we have 
talked about providing pediatric care at the border, staffing 
CBP facilities with child welfare professionals, and increasing 
oversight at CBP facilities. I know that we share the goal of 
ensuring that no child in the care of the United States is 
treated inhumanely.
    So can you please share your thoughts on how we can work 
together to ensure that every child in DHS custody has access 
to medical care and safe and healthy facilities?
    Mr. Wolf. Let me start off by saying obviously the care and 
welfare of any individual, whether it is an adult or child, is 
taken very seriously, and I take that very seriously as well, 
particularly when we talk about vulnerable populations such as 
children.
    We have done a number of things over the last 12 to 13 
months, including two new medical directives, one that was sent 
out in January 2019, and then we updated that medical directive 
in December 2019. As part of that, we have an implementation 
plan that is due at the end of the month, and I would offer to 
work with you and your staff to review that implementation 
plan. It has a number of initiatives in there, including a lot 
of what we are doing today, but it finalizes that and makes 
that permanent. So that includes having pediatric providers, 
medical service providers at Border Patrol facilities. We put a 
number of medical contracts in place. Up to 700 individuals can 
be there at any one time. We have 300 on the ground today in 47 
different locations. These are medical providers that are 
supplementing the staff. I will just say from January 2019 to 
March 3 of this year, CBP has provided over 263,000 medical 
interviews and over 75,000 medical assessments.
    So we do take our responsibility very seriously. I think we 
can continue to do more. Again, I am committed to working with 
you and your staff on how to continue to do more under the 
medical directives and under the direction that we are 
proceeding.
    Senator Rosen. Thank you. Thank you for agreeing to work 
with me and my office on this very important issue for taking 
care of the children. I know that we will continue to make 
progress so that we never face another crisis like this at the 
Southern Border like we saw last year.
    Now I would like to go on to build upon what Senator Hassan 
was talking about, about the Nonprofit Security Grant Program. 
Over the last few years, we have seen a dangerous increase in 
threats and attacks on all types of houses of worship, 
including the deadliest attack against a Jewish community in 
modern American history at the Tree of Life synagogue in 
Pittsburgh. It is, therefore, critical that we allow the 
appropriate resources to assist houses of worship as they try 
to increase the safety and security for all worshippers, our 
churches, our synagogues, our mosques, and temples. Americans 
of every faith should never have to live or should not live in 
constant fear that they can join together in their 
congregations, their communities, or church groups to pray.
    So the Nonprofit Security Grant Program provides FEMA 
grants to eligible nonprofits for target-hardening security 
enhancements to protect against terrorist attacks. 
Unfortunately, the President's budget does not appear to 
request a specific amount for the Nonprofit Grant Program.
    So given the need for the program, as demonstrated by an 
increase in the number of grant applications last year, can you 
explain how the Department will allocate sufficient resources 
to keep our houses of worship safe and secure?
    Mr. Wolf. There are a couple different ways, and I will say 
the President did sign that legislation into law, and so we 
will continue to work with Congress to make sure that that is 
fully funded, which is the Nonprofit Security Grant Program 
that goes toward houses of worship.
    At the Department we are doing a number of things, and what 
you will see in the fiscal year 2021 budget is an increase, 
taking our Office of Targeted Violence and Terrorism 
Prevention, where a lot of this work occurs outside of the FEMA 
grants, taking that from about $16 million up to $96 million, 
so making sure that we have capacity in this office to continue 
work in this area. So it not only benefits houses of worship, 
but it benefits all places, all institutions, soft targets that 
are perhaps targeted for a number of different reasons.
    I will also say we had our Homeland Security Advisory 
Committee--we had a subcommittee that provided a report on a 
number of actions, recommendations that the Department could 
take regarding houses of worship, and I sent that out to the 
Department for an implementation plan and hope to have that 
back soon. It has a number of recommendations that we will 
implement.
    Senator Rosen. I am still interested in being sure that we 
have adequate funding, because in fiscal year 2019, $16 million 
was allocated for the Security Grant Program, and organizations 
filed $169 million worth of grant applications. And so, 
obviously, there is a great need. You are talking about even 
less than that. How are we going to fill the gap between the 
need in our community--we have seen violence in prayer groups 
and churches around this country, synagogues and mosques and 
the like. So how do you think we can fill this gap?
    Mr. Wolf. So, again, the budget I was talking about was 
more on the policy and programmatic side. There is the FEMA 
grant process that will continue the Nonprofit Security Grant 
Program that will continue and, again, be focused on the houses 
of worship, as you indicated. My comment earlier was the 
President signed that authorization bill, so we are certainly 
committed to working with Congress to make sure that that is 
fully funded.
    I guess my point was there is the FEMA grant process and 
then there are other activities the Department is doing that 
also focuses on houses of worship and other soft targets.
    Senator Rosen. OK.
    Mr. Wolf. We are increasing our work in that area. We had a 
strategy that came back. When I was in the policy before this 
job, it was my primary focus, pushing that strategy out, which, 
again, sets priorities across the Department that looks at the 
rising threat of domestic terrorism writ large for the 
Department and specifically houses of worship. So the 
Department is certainly committed to it. I am committed to it. 
We have a strategy out there that is prioritizing our actions.
    Senator Rosen. Thank you. I am sure the faith-based 
community will appreciate it.
    Mr. Wolf. Thank you.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Secretary, thank you. You guys have been 
busy this last year, and let me follow up on the faith-based 
and Nonprofit Security Grant Program. You are right. Last year 
we finally got an authorization. The authorization was for less 
than the appropriated amount, actually because there is such a 
concern about this and such a need for it. So the $90 million 
that we got into the budget last year for this fiscal year was 
an unprecedented amount, and it is needed. We had over 2,000 
applications in 2019 that FEMA looked at. You were able to fund 
718 of them. So I do think there is--based on the analysis we 
have done at least, there are a lot of applications you thought 
were good applications but did not have the funding to be able 
to grant them.
    I am a little confused about your answer on where the money 
is in the budget because I do not see it either, and I know you 
support the program and the President also signed the 
authorization, which I really appreciate. I was the author of 
that authorization.
    We do have an increased level of hateful messaging, hateful 
crimes. We had bomb threats in Ohio 2 weeks ago. They were 
focused on the Jewish community, specifically some synagogues 
in northeast Ohio. It is reality. It is a sad reality, not just 
in the Jewish community but the Muslim community, the Hindu 
community, even in the Sikh community there have been some 
incidents, and the Christian community.
    Can you just more precisely tell me where the funding is 
coming from?
    Mr. Wolf. Sure. So the Nonprofit Security Grant Program is 
built within our larger FEMA grant program. It has not been a 
line item to date. We are continuing to fund it year over year. 
The bill that the President signed and Congress passed, I think 
you will see that in future budgets be a line item. Of course, 
that will was passed well before the budget--or well after the 
budget was created.
    Senator Portman. It was passed at the end of the year for 
2021.
    Mr. Wolf. Correct. But we are continuing to fund that. We 
funded that in the past, again, out of the larger pool of our 
FEMA grants. So it is there. It is just not a line item, so it 
does not show up specifically in the budget. But that is how we 
have continued to fund it, and I think you will see that 
reflected specifically based on the legislation that was signed 
into law.
    Senator Portman. So you would expect--my understanding is 
that was not true with regard to previous budgets, but you are 
saying it is within the FEMA grant program.
    Mr. Wolf. It is.
    Senator Portman. And usually there is $90 million as 
Congress appropriated set aside for this fiscal year?
    Mr. Wolf. For 2020 or 2021?
    Senator Portman. For 2020.
    Mr. Wolf. For 2020, I will get you the exact--whether it is 
60 or 90. I do not have that offhand, but I can certainly 
follow up with you on that.
    Senator Portman. With regard to what the number ought to be 
in the future, there has been discussion of that. As you know, 
some members have made announcements that they think it ought 
to be a certain level, and as we have looked into those, it is 
hard to find what the justification is, in other words, what 
the basis is. It seems to me what it ought to be is how many 
applications will come in, how you all have scored those 
applications, and I assume that there are, again, a number of 
them that were qualified but you just did not have the funds 
for. And that to me seems to be what ought to lead us next year 
as we look at the appropriations numbers to determine what the 
amount is. Are you willing to help us with that?
    Mr. Wolf. We are. Again, back to the earlier question about 
grant funding, what we try to do is buildup capacity, so what 
we are looking at is houses of worship. We are looking at those 
new houses of worship that need the grant funding to buildup 
their capacity. So we continue to look at all our needs.
    I will say that we get requests that outpace our resources 
each and every year for a number of our grant programs. We have 
resource constraints and have to make those decisions. But, 
yes, we will continue to work with Congress on what that right 
amount is.
    Senator Portman. I have been impressed with your people and 
also the FBI who have helped us back home in Ohio. We had a 
statewide conference, and a lot of good information was 
exchanged. Some things, frankly, are just best practices. How 
to harden a facility, where the cameras ought to be, and where 
security guards should be posted.
    Mr. Wolf. Right.
    Senator Portman. We also appreciate the fact that last year 
you permitted for the first time armed security personnel to 
receive some of the funding, understanding you want that to be 
sustainable over time. So I think we are making progress, but I 
just want to be sure that we come up with a number that makes 
sense, that is really meeting the need, because, again, sadly, 
I think it is increasing.
    With regard to the coronavirus, we have obviously a lot of 
need out there. I am just looking at the supplemental. We just 
got this a couple of hours ago. This is the proposed 
supplemental, and Chairman Shelby and the Appropriations 
Committee sent it out. It looks like it has funding for what 
you would expect, HHS, National Institutes of Health (NIH), and 
Food and Drug Administration (FDA) to try to get some therapies 
out there. And, there is State Department, United States Agency 
for International Development (USAID), aid in here for foreign 
countries to be able to contain it more. Even Small Business 
Administration (SBA) has some funding in here, but not DHS. Are 
you aware of that?
    Mr. Wolf. I am.
    Senator Portman. And why is that? I assume you are playing 
a central role in this.
    Mr. Wolf. We are, and, again, we stood up a number of 
medical contracts. I will say overall we spent somewhere 
between $12 and $13 million thus far on the Department's 
response. That was just stand-up, so initial costs to stand up 
a lot of our processes that we see at our airports, land ports 
of entry. We think that is probably $2 to $3 million going 
forward per month. So it is not a big number for us when we 
look at a whole-of-government response. Obviously, we can 
sustain that funding level to a certain extent. We will 
probably have to move some of our budget around this fiscal 
year to address that. But the administration wanted to focus 
this supplemental request obviously on the medical response. 
So, again, as you indicated, most of those dollars are 
dedicated to HHS, CDC, and others inside the Department of 
Health and Human Services.
    Senator Portman. Do you think under your current TSA 
budget, for instance, you have adequate funding to be able to 
respond to the crisis?
    Mr. Wolf. We do. We have adequate funding today to do that, 
not only to continue our medical contracts, our medical 
screening that we are doing at the 11 airports, but also the 
protective measures and protective wear, personal protective 
equipment (PPEs) that we are providing our workforce as well.
    Senator Portman. Finally, on the issue of China and these 
talent programs, as you know, the Permanent Subcommittee on 
Investigations (PSI) of this Committee spent a year looking at 
these programs and decided in a shocking report that we had 
virtually done nothing for two decades to keep Chinese programs 
like from taking our research, commercializing it in China, 
sometimes military, sometimes economic. And we are coming up 
with legislation shortly to deal with that that a lot of 
Members of this Committee will be part of.
    But one thing that I wanted to ask you about is how can you 
help us more to identify people who are coming over to the 
United States from China in particular, although other 
countries are involved as well in trying to get our taxpayer-
paid research, and specifically members of the Chinese military 
who have come over here for conferences, for university visits, 
and it seems to me that there is a pretty clear intent with a 
number of these individuals to obtain research while they are 
here and take it back.
    Mr. Wolf. Right.
    Senator Portman. Have you looked into this issue? And what 
do you think DHS should be doing that we are not doing?
    Mr. Wolf. Absolutely, so part of that is an intel issue, 
but also there are number of visa programs that USCIS 
administers that we see perhaps some that have been abused over 
time, that we see a lot of students on certain visas for 
extended periods of time from China, but also from other 
countries, that perhaps they are so large, it is very difficult 
for us to monitor those individuals.
    So we are working through a number of those visa programs. 
I am happy to talk to you and the Committee about how do we 
root out some of the abuse of those programs while retaining 
the ability, again, to bring over the best and the brightest, 
to continue to fuel the economy but make sure that we do that 
in a smart way.
    Senator Portman. We want to have appropriate exchanges, but 
I will just say that I think this Committee would be interested 
in helping you if you are looking for additional expertise and 
resources to identify these individuals, because this is a 
growing threat and obviously the problem is getting a lot more 
attention.
    You, as I understand it, are about to disband your Homeland 
Security Academic Advisory Council. I would just like to warn 
against that and instead use it for this purpose, because the 
relationship you have with our higher education partners is 
really important for us to be able to deal with this issue, and 
I think that Council could be a good forum.
    Mr. Wolf. OK. Thank you.
    Chairman Johnson. Senator Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Thank you, Mr. Secretary, for being here. 
Picking up on what Senator Portman spoke about, about the 
potential threat from a pandemic, certainly we hope that COVID-
19 does not become a pandemic, that it does not impact the 
lives of our citizens any more dramatically than it already 
has.
    But in the event that there were a pandemic of a 
substantial 
nature, there are a lot of people whose jobs would be on the 
line--restaurants, airline employees, hospitality workers 
generally, perhaps even retail individuals. Is there an effort 
at DHS or perhaps at Treasury to say how we could provide for 
continuity of business, continuity of paychecks, if you will, 
for people who might be put out of work by virtue of fear, 
people not going to restaurants, people not going on airplanes, 
and so forth? Are we contemplating that kind of a circumstance? 
Do we have plans in place or are you aware of things of that 
nature having been created?
    Mr. Wolf. I am aware of some of that planning that is going 
on in the interagency. Again, from the Department's 
perspective--I talked about it a little bit earlier--CISA, is 
talking with a lot of the private sector, their private sector 
across a number of the critical infrastructure sectors that 
they talk to about that continuity, about that business 
planning, about the telework, thinking through all the 
different steps that they need to do that perhaps they do not 
have pandemic plans like the U.S. Government has.
    So we have begun that outreach. We will continue to do that 
outreach and plugging them in. And as they do those calls, we 
have representatives from HHS and other departments of the 
Federal Government to provide that expertise. Perhaps they do 
not have the ability to plan to provide that.
    Senator Romney. We had Troubled Asset Relief Program (TARP) 
to save our banking system from collapsing. I am talking about 
do we need to think about what would happen if lots of people 
started getting laid off from a whole series of jobs who 
otherwise then cannot pay for their apartments and cannot pay 
their bills and so forth. There may need to be some kind of 
rescue capacity for people in this kind of circumstance that we 
need to begin to think about, and I would just encourage you, 
among your colleagues, not to plan that that is the case with 
COVID-19, but at least to have in mind plans to say how do we 
make sure in rescue enterprises so that people can keep getting 
paychecks and meet their obligations and not throwing our 
country into a financial distress setting.
    In that regard, with regards to the TSA employees, do you 
have masks and gowns and so forth that could protect our TSA 
employees if this becomes more substantial so that they do not 
have to worry about capturing some kind of disease from people 
that are coming through?
    Mr. Wolf. We do. We have protective materials, protective 
gear for both our TSA officers as well as our CBP officers.
    Senator Romney. You have a sufficient amount for them?
    Mr. Wolf. We do. We have sufficient supplies for them. We 
provide that today so they have the option of using those 
materials today. Some are opting to; some are opting not to. 
And so we will continue that.
    Senator Romney. Good. Glad to hear it.
    Mr. Wolf. And that is at the specific direction and 
guidance of the CDC.
    Senator Romney. Good. I want to turn to another topic, 
which is immigration. In the conversations I had with Border 
Patrol agents, they made the point that most of the people who 
are in this country illegally came here legally in the first 
place. Therefore, building a wall is an important part of 
securing our land, but also making sure that people who come 
here illegally are unable to get jobs here, taking away jobs 
from our own employees. Therefore, the E-Verify system many 
believe was the most effective way we have to prevent people 
from taking jobs that have come here and are here illegally.
    I noted that there is no longer a recommended mandatory 
E-Verify in the plan this and wonder why that is and suggest 
that we once again include a mandatory E-Verify system and 
perhaps enhance it as opposed to make it less robust.
    Mr. Wolf. We continue to look at that. Obviously, E-Verify 
is run out of USCIS from the Department, and they continue to 
work on that. What we have heard from a number of businesses 
and I think what the administration, the President, and others 
have heard from a number of businesses is the difficulty of 
using that system. So we are certainly taking a look at how to 
simplify, how to streamline the use of that system so that 
business can do that. And we certainly talk to them 
particularly about the agricultural sector, and we continue to 
have discussions with them about that.
    Senator Romney. It just strikes me it is not rocket 
science. If we have trouble with this, ask American Express or 
Visa or MasterCard how they give people a card and verify 
whether it is legitimate or not. And I am concerned that this 
is a system that is really effective and somehow we are 
stepping back from it.
    Let me turn to cybersecurity. I was disappointed in seeing 
that CISA's budget is being reduced. I cannot understand how 
that would be when the President said that threats to 
cybersecurity are a threat to the stability of the United 
States. I would anticipate this is a place where we would be 
substantially increasing our investment, not cutting our 
investment.
    Mr. Wolf. Part of this is a timing issue. Obviously, if you 
look at the President's budget request for fiscal year 2020 and 
the budget request for 2021, it is an increase. Obviously, the 
funding for the Department came a little late last year, and so 
I think this is a timing issue. I do agree and understand the 
concern it is a decrease or a reduction if we look at what was 
enacted in fiscal year 2020. Of course, our budget was built 
many, many months ago for fiscal year 2021.
    We will continue to work with Congress on what that right 
number is. I will say that I talked to Director Krebs 
specifically about the budget. He feels confident that the 2021 
budget request fully funds all the mission-specific critical 
needs of CISA.
    Senator Romney. Just given the attacks that are coming from 
various places, hostile places, it would seem that this is an 
area we should be investing quite substantially in.
    Let me turn to the Coast Guard. I do not have a good sense 
of what our relative capacity is, our relative strength is in 
the North Pole, in the seas in the north, and what other 
nations are doing. Do you have a sense, can you give us a sense 
of what Russia, China, and others have with regards to ice 
breakers and cutters in that area? And should we be making a 
more substantial investment in our Coast Guard capacity in 
those waters?
    Mr. Wolf. I would say certainly yes, as far as additional 
investment, and the fiscal year 2021 budget request asked for 
additional funding for that second Polar Security Cutter. I 
will say the other countries that you mentioned have many more 
assets than we do.
    Senator Romney. Why are we willing to live with the idea 
that they have many more assets there than we do? Why would we 
not make the investment to at least equal what other nations 
are doing in that part of the world?
    Mr. Wolf. So, again, we are doing just that. In the fiscal 
year 2021 budget request, it is $555 million for the second 
Polar Security Cutter, again, to address a number of our issues 
in the Arctic region. We will continue to look at--if you asked 
the Commandant the same question, he would have a plan for 
additional cutters. And, again, working within the resources--
national polar cutters. Working within those resources, we need 
to make sure that we continue to fund that. But, yes, that is 
an asset, that is a capability. The Coast Guard is doing great 
work with the current Polar Security Cutter that they have--I 
believe it is the Healy--which is about 40 to 44 years old. So 
we need to reinvest. The administration is doing that. The 
President's budget request does reinvest in those.
    Senator Romney. We are adding one. We are way----
    Mr. Wolf. We have a new one coming on, and this would be 
the second one.
    Senator Romney. Yes, I just would anticipate or I would 
encourage us to think about a much more robust investment in 
our capacity in those waters.
    Thank you.
    Chairman Johnson. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Thank you, Chairman. First of all, thank 
you, Secretary Wolf, for all your hard work.
    I recently had the opportunity to visit the Customs and 
Border Patrol international mail facility in Miami. You have 
got a great team. They were very, very, very impressive. And 
what I went down there to get a better understanding of is how 
we are inspecting all the goods that are coming 
internationally. I guess we have five of these facilities 
around the country.
    Do you feel like we are doing a good job? My understanding 
from talking to different ones is in the Miami facility they 
have the resources to be able to look at everything coming in, 
but in some of the others, they have to pick and choose because 
we just do not have the resources. So how do you feel about 
adequate resources and how we are doing with regard to 
international mail coming in?
    Mr. Wolf. I think over the last several years we have 
certainly increased our capacity and capability to look at 
those parcels coming in. I think we have more work to do on 
that. Congress passed a number of bills to help us in this, the 
Strengthen Opioid Misuse Prevention (STOP) Act, the 
International Narcotics Trafficking Emergency Response by 
Detecting Incoming Contraband Technology (INTERDICT) Act, that 
allows us and gives us some new tools and some new resources to 
do that.
    It is a challenging topic; it is a challenging issue for 
CBP. As you indicated, we have a number of these largest 
facilities. There is one in Florida, there is one in New 
Jersey. There are several across the country. As we look at 
opioids and the opioid crisis that we have, a lot of that comes 
through our U.S. Mail, and trying to ascertain that, screen 
those packages, and identify those packages is a real 
challenge. It is one that CBP has been really leading the 
charge on within the Department, and they will continue to do 
that. It continues to be a priority for them.
    Senator Scott. So knowing that China, in my opinion, 
intentionally sends fentanyl here and they produce a lot of 
counterfeit goods that they sell online, what resources do you 
need or what else should we be doing to stop this? Because it 
does not appear to be slowing down. They are doing more and 
more, and they are more creative all the time.
    Mr. Wolf. So it is certainly a whole-of-government approach 
from looking at it at the source, and the administration has 
been proactive on that. From a departmental perspective, there 
are a couple different ways we go about that. It is obviously 
screening individuals or packages as they come into the 
country. It is also investigating, so ICE Homeland Security 
Investigations (HSI) is our lead law enforcement in this area 
investigating these cases that we find as well. Our Science and 
Technology (S&T) Department I believe in the fiscal year 2021 
budget has about $8 to $9 million to continue to invest in the 
technology that can screen these packages or screen individuals 
that are bringing the illicit narcotics in.
    So we continue to invest from a departmental perspective on 
what our authorities are, on stopping bad things coming into 
the country. But I think to your larger point--and the 
administration is very committed on this issue--it is certainly 
more of a whole-of-government approach, engaging at the 
diplomatic level with the Chinese and others.
    Senator Scott. This is sort of a little bit the same, but 
going to the coronavirus, is there one place where, if you are 
Paul Anderson and you run the Port of Tampa, and he says, I can 
go to this one website or I can talk to this one person, and I 
am told exactly what I have to do to be able to deal with any 
screens we need to do with regard to the coronavirus?
    Mr. Wolf. So most of that information right now resides on 
the HHS website. I believe it is .gov/coronavirus, so a lot of 
the information they have there and what they are doing. I will 
say that the Department of Homeland Security on our dot-gov 
page also has a number of information there. We talked 
earlier--Ranking Member Peters talked about maybe a different 
website that has everyone's information in one place, and I 
would certainly support pushing out as much information to the 
public as possible.
    I will say that is exactly what the administration has been 
doing over at least the last several weeks, pushing out 
information, holding daily press conferences and briefings to 
know exactly the information, trying to share that in real time 
as closely as possible. But I would say it is both the HHS 
website--depending on what the question is--as well as DHS. We 
retain a lot of that information as well.
    There is also protective security advisers. There are a 
number of folks, certainly in Miami but elsewhere, that can 
also assist in answering those questions.
    Senator Scott. Florida is the cruise capital of the 
country, and now that we are seeing the coronavirus spread now 
through Latin America where a lot of the cruises go, especially 
on the east coast of Florida, how are you guys going to deal 
with the increase in cases down in Latin America?
    Mr. Wolf. So we continue to look at that very closely, 
again, with HHS and CDC, and I would say, I continue to say all 
options remain on the table as far as additional travel 
restrictions, additional measures, additional funneling at 
airports, medical assessments at airports. As cases increase, 
you have seen a number of travel warnings and travel advisories 
the Department of State has issued on this as well.
    First of all, we go where CDC and HHS tells us to go, and, 
of course, as they design their medical strategy, depending on 
what area of the world is the hot spot or they see it 
developing, we will adjust our measures accordingly. So if they 
see certain incidents or things occurring in Latin America, 
South America, then we will adjust accordingly. We only have so 
many resources, so we do need to focus our resources on the 
priority at the time. I will say right now it is flights coming 
from China and Iran into these 11 airports where we have the 
majority of our resources.
    Senator Scott. Are the Latin American countries being a 
partner? Are they doing screenings before people either get on 
planes or get on cruise ships and things like that?
    Mr. Wolf. So we are talking to all of our international 
partners, particularly in South America, Mexico, Canada, and 
the like. The only ones that I am aware of that are doing that 
outbound screening would be in Italy and South Korea at the 
moment. But we are talking to a wide range of international 
partners about what other measures they are putting in place.
    Senator Scott. Are you considering requiring that, 
otherwise people cannot get on cruise ships and airplanes?
    Mr. Wolf. Again, I would say that all options from my 
perspective remain on the table, and I know I have heard the 
Vice President also articulate that. So I think, yes, as we 
continue to look at how do we combat the virus, I would say 
everything is on the table, and we continue to assess that, 
which is why you saw new travel restrictions on the country of 
Iran.
    Senator Scott. Thanks.
    Chairman Johnson. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman. Mr. Acting 
Secretary, I appreciate you being here today, and I look 
forward to our discussion.
    I am committed to finding bipartisan and common-sense 
solutions to secure Arizona's border and protect our 
communities while treating migrants fairly and humanely. Strong 
border security and a fair immigration system should be 
mutually reinforcing goals, and I am ready to work with my 
colleagues in a bipartisan way to achieve those goals.
    Mr. Chairman, I ask for unanimous consent that the 
testimony of Ned Norris, chairman of the Tohono O'odham Nation, 
from the February 26, 2020, hearing before the House Natural 
Resources Subcommittee for Indigenous Peoples of the United 
States be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The statement referenced by Senator Sinema appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Sinema. Thank you.
    Mr. Acting Secretary, I believe we should work together 
with our travel partners to tackle some of the threats and 
challenges along our Nation's borders. Last week, during a 
Senate Appropriations Committee hearing, you mentioned 
conversations you had with me in my office and the Tohono 
O'odham Nation about government-to-government consultation and 
that you and the Tohono O'odham Nation have a difference of 
opinion when it comes to consultation. As you know, I wrote to 
you last December requesting a commitment to conduct robust 
government-to-government consultation with the Nation prior to 
executing any border security or immigration initiatives that 
impact the Nation.
    In your response on February 12th, you recognized the 
importance of this tribal consultation, but Mr. Norris, the 
chairman of the tribal community, said in his House testimony 
last week that DHS ``has failed to engage in any formal 
government-to-government consultation with the Nation,'' and 
that the tribe was informed about blasting on Monument Hill, 
which is a sacred site for the tribe, only on the date that it 
actually occurred.
    So my question is: How do you intend to work out this 
difference of opinion to ensure that the agency meets its legal 
obligation and the trust responsibility we have to tribes to 
solicit input from the Nation and incorporate the input 
received into the decisionmaking process and final plans?
    Mr. Wolf. The question I believe I received was: Are you 
consulting, are you communicating with them? The way it was 
phrased to me was, it appears that CBP and DHS is not. And that 
is not the case. So CBP specifically, as we talk about a border 
wall system and communicating with a number of landowners 
across the Southwest border, is certainly the lead agency in 
doing that. So I know they have been in consultations and 
discussions with the Nation on a variety of different issues. I 
know there are land use or water use issues that they have 
addressed, I believe, as well.
    So my commitment, as I indicated to you in our 
conversation, is to continue that consultation. I will take it 
back as far as the question of a formal government-to-
government consultation. I do not know if that is a term of 
art, but I am happy to look into that. But I do know that CBP 
has been communicating with the Nation on a number of 
instances. We will continue to do that. But if there is a more 
formal process that they would like to see, I am happy to look 
into that and to determine, if that has not already begun, why 
it has not.
    Senator Sinema. I would appreciate that. I am not familiar 
with the exact details either, but I did review the chairman's 
testimony and was concerned that his opinion was that that 
consultation had not been official or formal, and that they 
were receiving late notice about disruption of sacred sites.
    As you know, the DHS routinely waives a series of Federal 
laws to speed border barrier construction, and these waivers 
mean that DHS takes responsibility to protect cultural and 
sacred sites as well as water resources, as you just mentioned. 
I am hearing growing concern in Arizona from ranchers, 
communities, and tribes that DHS is not doing the best possible 
job with these stewardship responsibilities.
    In January, I wrote you a letter, and we talked on a call, 
asking you to review all the border barrier construction 
efforts in Arizona and to launch a Red Team review efforts to 
develop strategies to improve construction and better meet DHS 
responsibilities to protect water resources in culturally 
sensitive areas.
    The February response that my office received from you did 
not reference the request for the Red Team review, and that 
type of review is critically important so that Arizonans know 
that DHS is making every effort to mitigate the negative 
impacts.
    So is DHS willing to conduct the review and then develop 
and implement a strategy as a result of the review to best 
protect these water resources in sensitive areas?
    Mr. Wolf. What I would certainly commit is trying to 
understand better what the concerns are of the landowners. So 
if you receive information from them, if you want to forward 
that to us, to try to have a better understanding of what their 
specific concerns are. We have a very robust program at CBP not 
only from a contracting perspective but also a requirements 
perspective when we talk about a border wall system and what we 
do on the Southwest border. So there are a lot of safeguards. 
There are a lot of checks there. I am happy to have the team 
walk you through what we do there. But if we can get a better 
sense specifically of what are the concerns of the landowners--
we have a very large footprint on the Southwest border working 
through a lot of these issues. The Army Corps is obviously down 
there, which is our main contractor building our border wall 
system. They have a number of subcontractors that are doing a 
lot of the survey work.
    So I think I would need to just understand a little bit 
more about what the concerns of the landowners are, if it is 
their personal property, if it is survey concerns, if it is 
right of access, what the issue is, and then we can certainly 
work with you and your office to address those.
    Senator Sinema. We will certainly follow up, and I 
appreciate that offer. I will tell you that while our ranchers 
in particular on the Southern border are very concerned about 
border control and border security, they are equally concerned 
about water resources because that is the livelihood for them 
and their families and for future generations.
    I mentioned in my January letter concern about depletion of 
groundwater and how that could have a significant effect on the 
livelihood of these exact communities. I appreciated your 
agreement to not drill new wells within 5 miles of Quitobaquito 
Springs, but I am still concerned that DHS use of local wells 
for barrier construction will deplete groundwater levels near 
the San Bernardino Refuge, Cabeza Prieta National Wildlife 
Refuge, and other areas of Arizona.
    So I would like to work together closely on this, but I 
would like to hear what steps DHS is taking to mitigate 
negative impact on water resources across Arizona, in addition 
to Quitobaquito, also paying attention to San Bernardino and 
Cabeza Prieta.
    Mr. Wolf. I am happy to work again with you and the office 
to address that. Again, our CBP team that looks at a number of, 
I would say, not only resources but issues, as we look at 
priority sections of where we are building the border wall 
system, and again, working with the Army Corps who will go in 
there, who will do a number of surveys, do a number of 
assessments, looking at specific issues. For many of the sites, 
we bring in the water. There are some sites where we do not. 
But I am happy to work with you and the office to address any 
concerns. As you mentioned, we were able, again, to address one 
of the concerns with the Nation that we talked about earlier. 
So we will continue to have that collaborative relationship.
    Senator Sinema. Thank you. Mr. Chairman, my time has 
expired, but I want to just let the Under Secretary know my 
team will follow up particularly about those two water refuge 
areas and ensuring that we get some kind of agreement like we 
have with Quitobaquito.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here.
    I want to start with the good news by saying that we are 
grateful in the State of Missouri for the folks at FEMA, the 
12,300 personnel there and the 519 FEMA core staff, many of 
whom have come to the aid of my constituents over this past 
year in what was for us a very devastating year of natural 
disasters in the State of Missouri and are helping as we get 
ready for another serious flooding season this season. So thank 
you for that.
    Having said that, I would be remiss if I did not mention 
that many of my constituents have faced seemingly 
insurmountable bureaucratic challenges in getting applications 
made to FEMA and getting responses from FEMA. We have had 
instances where folks are still waiting for a response from 
FEMA on assistance. We have even had a couple of instances in 
which FEMA awarded grants of individual assistance to 
individuals and then withdrew it and said, ``Oops, we made a 
mistake. We want you to give all of that back.''
    You can imagine how--``frustrating'' is not the right word, 
I mean, how absolutely infuriating that is given everything 
that they have been through. Of course, most of these folks are 
still not even in their homes given the flooding.
    So I have raised these issues with Administrator Gaynor 
repeatedly. I have also written him a letter to which he just 
replied yesterday. Here is the bottom line for me. I want to 
make sure that FEMA has policies in place to get Missourians 
the aid that they still need retroactively--retrospectively, I 
should say, and that they are ready to assist Missourians in 
the flooding season that unfortunately is soon to be near upon 
us. Do I have your commitment on that?
    Mr. Wolf. You certainly do, and I talked to Administrator 
Gaynor about this, and certainly as we look forward, FEMA is 
going to support not only Missouri but any affected community.
    I will say that I have certainly heard about the 
bureaucratic challenges that you mentioned, and it is certainly 
something I have talked to FEMA about. When a natural disaster 
hits, as I have said previously, that individual or that family 
that is affected could have three or four, maybe up to six 
different inspectors, folks knocking on their door from a 
variety of different agencies--FEMA, HHS, and the like. So we 
want to make that as simple as possible, and I know FEMA is 
doing a lot of work on that.
    So, again, you certainly have my commitment, working 
through Administrator Gaynor, to try to simplify that process. 
If there is any outstanding one-offs, certainly let me know, 
and we can sort of address those. I read your comment to be a 
little bit more holistic than just bureaucratic challenges, but 
if there are specific ones, we are happy to take those on.
    Senator Hawley. Thank you. I appreciate that. I look 
forward to working with you on that.
    Let us talk about the border crisis and opioids. I believe 
that CBP last year, in fiscal year 2019 at least, seized over a 
million pounds of drugs, arrested 12,000 individuals wanted for 
criminal activity, and inspected over 400 million travelers, 
which is quite significant. In Missouri, we are feeling the 
effects of this. Our own Department of Health and Senior 
Services reports that one out of every about 56 deaths in the 
State in 2018 were caused by opioids, over 1,100 deaths in 2018 
alone due to opioids, and that is not even getting to other 
forms of drugs like methamphetamines, for instance, that are 
crossing the Southern border and flooding into my State.
    I can tell you--I have seen it firsthand--there is not a 
single community and unfortunately there is not a single school 
in the State of Missouri that has not been touched by the drug 
crisis, this wave of illegal drugs coming across the Southern 
border. Give me an update on that. What more do you need from 
this Congress to do your job and stem that flow?
    Mr. Wolf. As I indicated earlier, I think we have a couple 
of different challenges when we talk about opioids. Obviously, 
coming through the U.S. Mail, coming into the country, it is a 
challenge. Congress has passed a couple of bills that provide 
additional resources, additional capabilities, the STOP Act, 
the INTERDICT Act that we are implementing, and so thank you 
for that. We continue to do that.
    When we talk about the Southwest border, it is our 
nonintrusive inspection (NII) equipment as well as our canine 
capability to continue to do that. So, again, Congress 
allocated funding in fiscal year 2019 and 2020 for about 600 
systems, NII systems, and that will increase our capability by 
2023 to inspect instead of 1 to 2 percent of vehicles coming in 
for illicit narcotics, to get all the way up to 40 percent, and 
for commercial vehicles to take that from 15 percent to 72 
percent. So, again, through Congress' help and resources, we 
are trying to roll out both the large, the medium, and the 
small nonintrusive inspection that gets at some of our 
narcotics.
    Senator Hawley. Thank you for your work on that. I look 
forward to continuing to work with you on it. It is a subject 
of immense importance.
    Mr. Wolf. Absolutely.
    Senator Hawley. For literally every community in my State.
    Finally, for me the last topic, China. I have been 
following the exploitation, and we have explored it some in 
this Committee, their exploitation of American research and of 
our educational system, including, of course, Internet Protocol 
(IP) theft and sometimes just outright espionage. I have 
introduced in this Committee a measure, S. 2728, which would 
give your Department expanded authorities to address this 
issue, including developing counterintelligence awareness 
training, a vetting task force, a focused effort between your 
Department and State to identify areas of study and fields of 
study that are sensitive for homeland security and 
counterintelligence purposes.
    Can you speak to some of that? Would those sorts of 
authorities, would this sort of effort be helpful to you in 
your work?
    Mr. Wolf. I certainly have not seen the bill, but just what 
you described, it would be immensely helpful. And so in the 
Department, I would say about 6 weeks ago I asked the 
Department to pull together a China working group to take a 
look across the Department of where are our authorities, where 
do we do a lot of work, where do we see any seams or gaps, take 
a look at the intel, and then come back. So that is underway.
    I can tell you we probably have seams and gaps from a DHS 
perspective, but a lot of what you said I think would fit 
nicely in the work that we are doing. So I would look forward 
to working with you on that.
    Senator Hawley. Great. We will follow up with you. Thank 
you so much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Hawley.
    Senator Hassan has a few more questions before I ask mine 
and close out the hearing.
    Senator Hassan. Thank you for the courtesy, Mr. Chair. And 
I did want to just echo--Senator Harris had asked for an 
oversight committee hearing on wildfire prevention, and it 
sounds like a very good topic for us to explore. So I would 
just add my support for that.
    Secretary Wolf, I wanted to ask a couple more budget items. 
The Multi-State Information Sharing and Analysis Center (MS-
ISAC), is a vital tool for Federal, State, and local 
governments to share cybersecurity information with each other, 
particularly as cyber threats against our schools, local 
governments, and health care facilities are surging across the 
country.
    Last fall, I sent DHS a letter along with Senators Schumer 
and Peters asking to ensure that the MS-ISAC has adequate 
funding to do its job. We confirmed with Director Krebs, the 
CISA Director, last month that MS-ISAC received the full 
funding this year to do its important work. Yet in the 
President's fiscal year 2021 budget request, you are once again 
proposing to underfund this important organization.
    So what are you going to do to ensure that the MS-ISAC gets 
the funding it needs so that we can avoid the same uncertain 
budget planning year after year?
    Mr. Wolf. I have also talked with Director Krebs not only 
about the MS-ISAC--obviously they have an Election 
Infrastructure ISAC as well.
    Senator Hassan. Right.
    Mr. Wolf. A number of these ISACs are absolutely critical 
to the work that CISA does. So let me take that one back. I am 
happy to work with you to make sure that we have adequate 
funding to those ISACs, absolutely critical to what CISA does 
and how they share information with our private sector, State 
and locals. So you certainly have my commitment to do that.
    Senator Hassan. Great. That would be good to work on 
together. Then I wanted to turn to another topic. As you know, 
late last year a member of the Saudi Royal Air Force attacked 
the Pensacola Naval Station and killed three United States 
sailors and injured eight more. Al-Qaeda's Yemen affiliate has 
subsequently claimed credit for this attack. The shooter was 
here on a temporary visa through which friendly nations send 
their military officers to our country for training and 
education.
    In the aftermath of the attack, the Federal Government 
rescreened the remaining Saudi military personnel here for this 
program and found that 17 of them had shared jihadist material 
online and 15 were in possession of child pornography.
    What steps is DHS taking to conduct more thorough vetting 
of foreign military students and trainees? And how is the 
President's budget request for DHS supporting this enhanced 
vetting?
    Mr. Wolf. Sure, absolutely. We continue to work with the 
Department of State specifically on the Pensacola issue, as you 
outlined, not only with the Department of State but with the 
Department of Defense (DOD) on that. So from a DHS perspective 
through USCIS, we do a number of the security enhancements or 
security reviews of different visa applications. Some of the 
visa programs we run; many of those that we do not. The 
Department of State runs this specific one that you mentioned.
    So we will continue to do that. The budget, obviously USCIS 
is fee-funded. They do not have a traditional appropriations 
like most of our other work. So there are a number of things 
that we are doing to make sure that USCIS, including looking at 
their fee structure, they have a rulemaking which is out there 
for comment today, to make sure they continue to be fully 
funded so that they can do their work, which includes the 
security reviews that you are talking about.
    Senator Hassan. All right. Thank you. I would look forward 
to working with you additionally on that.
    I just wanted to turn back to one thing. I asked you 
earlier about the whole issue of cuts to the National Domestic 
Preparedness Consortium funding, and you said that part of what 
we would see in the supplemental proposal was perhaps money 
that could be used in that way. Then I just heard Senator 
Portman say that the supplemental that Congress has agreed on 
does not include funding for DHS. So I do not want to put you 
on the spot at this moment, but how are we going to make sure 
that our local front-line people have the kind of training 
especially around public health preparedness that they need to 
have.
    Mr. Wolf. Sure, we will continue to look at the training 
piece. I think my comment a few minutes ago was included in the 
supplemental request. I have not seen the current version of it 
that is floating out there. It was information--or, sorry, it 
was funding that would come to HHS that they would provide to 
State and locals to respond to the coronavirus. So that was my 
specific comment.
    Senator Hassan. OK.
    Mr. Wolf. I will take a look at the consortium. I am not 
familiar with their exact funding level, but I agree with you, 
making sure that State and locals have the training that they 
need to do that, and we will continue to do that. There are 
tradeoffs in our budget that we have to make, and so what the 
2021 budget request is is a reflection of those tradeoffs. But, 
again, I think this is an important issue. I am happy to 
continue to work with you and your staff to make sure that we 
get the right balance there.
    Senator Hassan. All right. I appreciate that. Thank you 
very much. And thank you, Mr. Chair.
    Chairman Johnson. Thank you, Senator Hassan.
    A completely different subject. During Secretary Nielsen's 
confirmation one of the priorities she pointed out to me was 
the fact that she wanted the authority within DHS to counter 
the malign use of drones. I think we were all shocked that law 
enforcement did not have that. We got that authority to you, 
but this is really pretty much the first step. So I wanted to 
ask you: What have we done with that authority? And is it time 
now for a second or third step in terms of where we are at, 
countering the malign use of drones?
    Mr. Wolf. I would say, Mr. Chairman, as you mentioned, it 
is very specific and I would say even in some respects limiting 
authority that was provided to DHS, and it includes just 
covering DHS facilities mainly. It also allows us to respond to 
an incident, and so we would certainly do that when we talk 
about a soft target. There is an ongoing conversation that we 
continue to have with Congress, particularly on the House side, 
regarding Counter Unmanned Aircraft Systems (CUAS) capabilities 
at airports, which is where we see a lot, but not all.
    So we continue to do that, but, again, our authority is 
very limited. We are using a lot of the funding request to 
develop capabilities, and we are certainly utilizing experience 
not only from inside DHS and Secret Service (USSS) has a little 
experience in this area, but also DOD and what they are doing 
in theater to protect their facilities.
    So we are trying to leverage their expertise to build out 
our expertise, but I would agree with you, I think it is the 
next step. It is time probably to talk about additional 
authorities, additional capabilities that the Department needs. 
And I will say that this is a difficult area to build up 
capabilities in, and so whether you look at DOD--they have been 
doing this for several years. We have had the authority just 
for, I would say, a year and a half. So we need to do more, but 
I am happy to continue to work with Congress on what those new 
authorities are.
    We have started to outline what those possibly could be, so 
I am happy to talk to Congress as we look at those in the 
interagency as well.
    Chairman Johnson. The agency I think you really have to 
deal with is the Federal Aviation Agency (FAA).
    Mr. Wolf. We are.
    Chairman Johnson. OK.
    Mr. Wolf. That is part of the process.
    Chairman Johnson. This Committee will stand ready to get 
your input in terms of what we need to do on this, 
understanding how really complex this issue is, but OK.
    Senator Hassan mentioned this, and I appreciate that, and 
this Committee I think is very appreciative of the men and 
women within DHS, the conditions they work under. I think you 
mentioned that in your written testimony, but the risks that 
they subject themselves to.
    Mr. Wolf. Right.
    Chairman Johnson. So we really do want to convey our 
gratitude and have you take that back to the men and women.
    Mr. Wolf. I certainly appreciate that, and I just want to 
build off of that. Certainly the commitment and the support 
that you provide the men and women of DHS does not go 
unnoticed, and certainly the Committee as well. So we again 
thank you and your staffs for everything that you do to support 
us, provide us the resources, the authorities that we need to 
do our job, so I appreciate that.
    Chairman Johnson. Because Committee Members go to the 
border, are in more frequent contact with the men and women of 
DHS, you are not seeing us politicize here today the response 
to the coronavirus. Unfortunately others have. Again, I am very 
mindful of the fact that tomorrow we will have this hearing, 
and so many of these questions really are directed toward HHS, 
CDC, and NIH. But what I would like you to do, because you have 
been there since January 2nd, talk about how the administration 
has responded from the standpoint of the interagency working 
groups. Again, from my standpoint the administration has 
definitely not underreacted. I think they are fully aware--
because, again, I have not tried 
to--I have not abused this privilege, but we have spoken a 
number of times. I have spoken with people within NIH, CDC, Ken 
Cuccinelli. We have had that type of access, and I appreciate 
that. But if you can just kind of talk, because there is a true 
cost to overreacting.
    Mr. Wolf. Absolutely.
    Chairman Johnson. I have also said that the chance that 
this administration gets it perfect is zero. But, again, you 
are not underreacting. You understand the cost of overreacting. 
Can you just kind of talk about the interagency working, what 
you have been going through to give--first of all, I think to 
lay some of this what I would consider grossly unfair criticism 
to rest, but also give the American people some comfort that 
you are on the case here.
    Mr. Wolf. I think some of the actions that we took 
initially should give the American people a very strong 
confidence. The President was one of the first individuals 
leaning forward on this. We put in a number of travel 
restrictions and the funneling, really the first country to do 
that. And, of course, a number of others have followed since 
then.
    I will say that, again, the threat of coronavirus to the 
American people remains relatively low, and it is designed to 
keep it that way on a number of the procedures that we are 
putting in place.
    The interagency process is working well. As you indicated, 
we are trying to strike that right balance, trying to push out 
as much information to the American people, to Congress, and to 
our other stakeholders, to make sure they understand what is 
going on. So there is a lot of activity that you can see, and, 
of course, there is a lot of activity that the American people 
cannot see.
    So at the Department of Homeland Security but also the 
other departments that are part of the task force, we are doing 
a number of planning. So we have pandemic plans in place. We 
are doing a number of planning, a number of things behind the 
scenes. As this unfolds, should it unfold, should we need to go 
in a different direction, all that planning is taking place 
today as we continue to try to fight and mitigate the virus 
today.
    So we continue to do that. A lot of that I appreciate the 
American people cannot see, and perhaps, some Members of 
Congress cannot see, but the work is going on. I will say the 
Vice President and the leadership that he has provided to this 
is holding, as I mentioned, daily information flows to the 
American people, which started--we have weekly and biweekly 
briefings to Congress, pushing out as much information as we 
can. Again, as you mentioned, you have an oversight hearing 
tomorrow with HHS and DHS, so we continue to push out as much 
information.
    But I think your point is right, which is we need to be up 
front and very transparent with the American people. But let us 
not overreact. Let us tell them what we know, and that is what 
we are doing. Let us act on what we know and then talk about 
preparedness measures, talk about what we can in open settings 
like this. But just know, I would say to you and the American 
people, that the Department of Homeland Security and our other 
interagency task force members are planning for all scenarios. 
As I mentioned earlier, all options remain on the table to 
address the coronavirus.
    Chairman Johnson. I think it is important that Members of 
Congress but the American people understand, too, that we do 
not have perfect information. Far from it. It takes time to 
develop the testing capability and then manufacture and 
distribute it. Personally from what I understand, 2,500 kits 
will be going out by the end of this week. Each one of those 
kits has the capability of doing 500 tests. Do the math on 
that. That is 1.2 million tests.
    Now, talking to Senator Hassan, apparently, to really 
confirm results because you do not want false positives, maybe 
each patient might need two. But that has been a real 
limitation, so that is really kind of a first step. That has 
just been a limitation. We have a limitation in terms of the 
number of doctors and nurses we have and other health care 
professionals working in hospitals. So we need to make sure 
that they are protected first.
    Again, I am very mindful of how complex, how difficult this 
issue is. Again, I have been very appreciative of how 
accessible members of the administration have been, and we 
certainly know because we have been briefed multiple times. 
Almost daily there is some kind of briefing going on. So, 
again, I just really appreciate that, and I want you to convey 
certainly this Committee's appreciation to not only the men and 
women of DHS but throughout these government agencies that are 
doing everything they can to keep America as safe as possible. 
This is a real issue; this is a real problem. It is not being 
ignored by any stretch of the imagination.
    Secretary Wolf, we really do appreciate your service. I 
mean this.
    Mr. Wolf. Thank you.
    Chairman Johnson. I do not envy your task, but I truly 
appreciate you stepping up to the plate here, coming before 
this Committee, but just your work, your tireless work day in 
and day out.
    The hearing record will remain open for 15 days until March 
19th at 5 p.m. for the submission of statements and questions 
for the record. This hearing is adjourned.
    [Whereupon, at 4:17 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                                            



                            <all>
</pre></body></html>
